U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

December 11, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: StevenT. Waltner, et ux. v. Commissioner of Internal Revenue, No. 19-488
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 8,
2019. The government's response is now due, after one extension, on December 16, 2019. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including January 15, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government's response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0488
WALTNER, STEVEN T., ET UIX.
COMMISSIONER OF INTERNAL REVENUE

DONALD WILLS WALLIS
UPCHIJRCH, BAILEY AND UPCHIIJRCH P.A.
780 NORTH PONCE DE LEON BLVD.
ST. AUGUSTINE, FL 32084
904-829-9066
DWALLIS@UBULAW.COM

